           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     BENEFICIARIES PAID UNDER
      MORE THAN ONE SOCIAL
        SECURITY NUMBER

     August 2006   A-01-06-26022




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.


                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   August 10, 2006                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Beneficiaries Paid Under More than One Social Security Number (A-01-06-26022)



        OBJECTIVE
        Our objective was to identify and prevent individuals from receiving Old-Age, Survivors
        and Disability Insurance (OASDI) benefits and/or Supplemental Security Income (SSI)
        payments inappropriately under multiple Social Security numbers (SSN).

        BACKGROUND

        In April 2005, we issued a report, Individuals Receiving Benefits Under Multiple SSNs at
        the Same Address (A-01-05-25002), where we identified over $9 million in
        overpayments and a number of cases involving fraud. The Social Security
        Administration (SSA) has since agreed to improve its matching processes to identify
        individuals receiving multiple benefits inappropriately at the same address. (See
        Appendix B for additional information on this prior report.) As a result of our April 2005
        report, we initiated this review to identify individuals who received benefits
        inappropriately under multiple SSNs at different addresses.

        To perform this review, we analyzed SSN and benefit records for approximately
        54 million OASDI and SSI beneficiaries. Based on this analysis, we identified
        320 beneficiaries who appeared to be receiving benefits inappropriately under at least
        two different SSNs. We referred these 320 cases to SSA in December 2005 for review
        and appropriate action. (See Appendix C for additional information on scope and
        methodology.)

        RESULTS OF REVIEW
        With SSA’s assistance, we identified 221 cases where individuals, in general, received
        benefits inappropriately under multiple SSNs at different addresses. Specifically,
        212 cases involved possible fraud and 9 had administrative errors. As of July 2006, the
        Agency had identified $3.0 million in overpayments for a portion of these cases. We
        also believe the Agency has avoided paying an additional $296,711 by discontinuing
Page 2 – The Commissioner


these inappropriate benefit payments.1 Our Office of Investigations and SSA staff
continue to work these cases. Therefore, we expect the Agency to assess additional
overpayments.

Specifically, out of 320 cases:
                                                                 Results of Review
    •   212 cases involved                                         9 Cases with Administrative
                                             212 Cases of
        possible fraud, resulting            Possible Fraud        Errors (3%)
                                                                                                 88 Cases Not
        in about $3.0 million in             (66%)                                               Overpaid
        overpayments.2                                                                           (28%)


    •   9 cases were overpaid
        due to administrative
        errors (e.g., SSA staff not
        cross-referencing
        records)—resulting in
        $66,972 in overpayments                                                                   11 Cases
        and $8,260 in savings for                                                                 Still Pending
                                                                                                  (3%)
        the next 12 months.

    •   88 cases were not
        overpaid.3

    •   11 cases were still under review as of July 2006.




1
  This is the amount that would have been paid to the beneficiaries if SSA had not stopped benefits based
on action taken during our review. Savings were calculated by taking the last monthly overpayment
received by the beneficiaries multiplied by 12 months.
2
  Of these 212 cases, 5 involved illegal aliens stealing other people’s identities to obtain SSNs on which
they received SSI benefits inappropriately. For example, an illegal alien in California obtained an SSN
using someone else’s identification and received SSI payments under this SSN from August 1993 to
April 2006. She was overpaid $83,890 because an illegal alien is not entitled to receive SSI payments,
per the Social Security Act § 1614(a)(1)(B)(i), 42 United States Code § 1382c(a)(1)(B)(i). Although SSA
educates the public on identity theft through its publication, Identity Theft and Your Social Security
Number (SSA Publication No. 05-10064), the Federal Trade Commission is the Federal clearinghouse for
complaints by victims of identity theft.
3
  These cases generally represented different individuals, such as twins. Additionally, in at least 3 cases,
one person used another person’s identification to obtain an SSN. Although these SSNs were obtained
inappropriately, the individuals were not overpaid. For example, one woman obtained an SSN using her
sister’s identification but received spouse’s benefits on her own husband’s record.
Page 3 – The Commissioner


Beneficiaries Were Overpaid Due to Possible Fraud

SSA staff—working with our Office of Investigations on 212 possible fraud cases—
determined that 59 beneficiaries were overpaid about $3.0 million4 and expect to
determine additional overpayments for the majority of the remaining 153 beneficiaries.
For example:
    •   A Florida resident obtained three different SSNs and received SSI payments
        under each SSN. She also reported a different address under one of her SSNs.
        From February 1992 to February 2006, she was overpaid $90,506. This case is
        still being investigated.
    •   An Illinois resident began receiving disability benefits on one SSN in July 1971
        while continuing to work under another SSN. Then, in April 1995, she began
        receiving retirement benefits on the second SSN. For each benefit, she reported
        a different address. She was overpaid $63,248 from April 1995 to March 2006.
        This case is still being investigated.
    •   A Michigan resident began receiving SSI disability benefits under one SSN in
        September 1975 while continuing to work under another SSN. In October 2000,
        she began receiving retirement benefits on the second SSN. For each benefit,
        she reported a different address. Later, when her SSI eligibility was reviewed,
        she stated that she had no income—even though she was receiving retirement
        benefits and was earning over $40,000 a year from a local school system under
        the second SSN. Because SSA was not aware of this income which made her
        ineligible for SSI, she was overpaid $122,218 from October 2000 to
        February 2006. Our Office of Investigations reviewed this case, and the
        beneficiary signed an agreement to repay the funds.
    •   A Washington State resident with two different SSNs began receiving spouse’s
        benefits in July 1964 under one SSN while continuing to work under another
        SSN. In November 1995, she began receiving retirement benefits on the second
        SSN. For each benefit, she reported different addresses. In May 2006, SSA
        suspended her benefits for possible fraud and referred the case to our Office of
        Investigations. The Agency is in the process of determining the amount of the
        overpayment while the case is being investigated.

Obtaining Multiple SSNs

Although SSA generally assigns an individual only one SSN, a second SSN was
assigned to the majority of the 221 individuals who received benefits inappropriately.
However, all of the second SSNs were assigned prior to 2002. Since then, SSA has
implemented several initiatives to protect the integrity of the SSN.

For example, on October 27, 2003, the Agency began requiring mandatory interviews
for all applicants for original SSNs who are over age 12 (lowered from age 18) and

4
 The overpayments ranged from $151 to $188,227; and the number of months overpaid ranged from
1 month to 314 months (or 26 years).
Page 4 – The Commissioner


required evidence of identity for all children, regardless of age. On April 18, 2005, SSA
established its second Enumeration Center in Las Vegas, Nevada (the other is located
in Brooklyn, New York) which focuses exclusively on assigning SSNs and issuing SSN
cards. On December 17, 2005 several more changes were made to the SSN process
as a result of the Intelligence Reform and Terrorism Prevention Act of 2004, including:
(1) verifying birth records for any individual prior to obtaining an original SSN, and
(2) tightening the minimum standards for documents that may be presented when
applying for an original card.5

CONCLUSION AND RECOMMENDATIONS
SSA had not previously identified the beneficiaries in our review who received OASDI
benefits and/or SSI payments inappropriately. However, many of these beneficiaries
had more than one SSN—all obtained prior to 2002. Since then, SSA has made
several changes to the SSN process—in line with its Strategic Plan—making it more
difficult to obtain a second SSN or receive benefits inappropriately under multiple
SSNs.6

To ensure all possible instances of fraud are identified and addressed for the cases in
our review, we recommend SSA staff continue to work with our Office of Investigations
and assess overpayments where appropriate.

AGENCY COMMENTS
SSA agreed with the recommendation. (See Appendix D.)




                                                  S
                                                  Patrick P. O’Carroll, Jr.




5
 The Intelligence Reform and Terrorism Prevention Act, Pub. L. No. 108-458 § 7213. This Act was
enacted in December 2004 and implemented by SSA on December 17, 2005 in accordance with the law.
6
 SSA, Strategic Plan FY 2006 – FY 2011, pages 20 and 23. The Strategic Plan includes objectives to
prevent fraudulent and erroneous payments and to strengthen the integrity of the SSN.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Status on Prior Related Audit
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
SSN           Social Security Number
SSR           Supplemental Security Record
                                                                                         Appendix B

Status on Prior Related Audit
In our April 2005 audit on Individuals Receiving Benefits Under Multiple Social Security
Numbers at the Same Address (A-01-05-25002), we identified and referred to the Social
Security Administration (SSA) 354 beneficiaries who may have received benefits
inappropriately under at least two different Social Security numbers (SSN) at the same
address. As a result, SSA assessed over $9 million in overpayments and recovered
$517,905 (6 percent) of these funds. However, at the time we issued the report, in
April 2005, there were 85 cases still pending. Therefore, we continued to follow the
cases. See the pie chart below for a status of the cases as of July 2006.

                 Individuals Receiving Benefits Under Multiple SSNs at the
                           Same Address - Status as of July 2006


                                                                       41 Overpaid $586,307
                                                                        due to Error (12%)




            221 Overpaid                                               73 Not Overpaid
          $11.6 million due to                                             (21%)
         Possible Fraud (62%)                19 Still being reviewed
                                                       (5%)



With SSA’s assistance, we found, out of 354 cases:
 262 beneficiaries were assessed $12.2 million in overpayments, $1.4 million of which
  was recovered as of July 2006 by SSA. We also believe SSA avoided paying an
  estimated $2.0 million by stopping these incorrect payments. Of these beneficiaries:
         • 221 were overpaid $11.6 million due to possible fraud and a number of
            these cases have been prosecuted by the United States Attorney’s office,
            and
         • 41 were overpaid $586,307 due to error, such as staff establishing
            benefits under the wrong SSN.
 73 beneficiaries were not assessed overpayments. Of these 73 beneficiaries,
  13 died before the review could be completed. Additionally, SSA determined that
  6 beneficiaries were not overpaid but adjusted their benefits as needed. In the
  remaining 54 cases, SSA determined that they involved two different individuals,
  usually twins, who were appropriately receiving benefits.
 19 beneficiaries were still having their cases reviewed.
                                                                                  Appendix C

Scope and Methodology
To accomplish our objective, we:
   Reviewed applicable sections of the Social Security Act and Social Security
    Administration (SSA) regulations, rules, policies and procedures.
   Reviewed our April 2005 audit on Individuals Receiving Benefits Under Multiple
    Social Security Numbers at the Same Address (A-01-05-25002).
   Used—from the April 2005 audit—the file of (1) Master Beneficiary Records (MBR)
    for all Old-Age, Survivors and Disability Insurance beneficiaries and
    (2) Supplemental Security Records (SSR) for all Supplemental Security Income
    (SSI) recipients who received benefits in February 2004. We also obtained the
    Numident file for these beneficiaries and recipients.1 We then ran several matches
    on these files based on the following fields: date of birth and first five characters of
    beneficiary’s first name, parents’ last names, and place of birth. We compared these
    four fields in the following files:
            •   Records within the SSR file.
            •   Records in the MBR file against the SSR file.
            •   Records within the MBR primary beneficiary file.2
            •   Records in the MBR primary beneficiary file against the MBR auxiliary
                beneficiary file.2
            •   Records within the MBR auxiliary beneficiary file.
    We removed any cases:
            •   That were identified in the prior audit, Individuals Receiving Benefits Under
                Multiple Social Security Numbers at the Same Address
                (A-01-05-25002).
            •   Where the benefits on one record were cross-referenced or accounted for
                on the other record—as these individuals were entitled on multiple records
                or were concurrent beneficiaries—and SSA has processes in place to
                ensure benefits are adjusted appropriately.



1
  SSA, Program Operations Manual System (POMS), RM 00209.002. The Numident Master File houses,
in SSN order, the identifying information for each number-holder.
2
 SSA, POMS, GN 03301.002 B. A “primary beneficiary” is a Social Security number-holder entitled to
benefits based on his/her own work record. An “auxiliary beneficiary” is someone entitled to benefits
based on someone else’s work record, by virtue of relationship to the number-holder.



                                                  C-1
              •   Where the records were cross-referenced but the Social Security number
                  (SSN) was incorrect, as we have previously studied this issue, and SSA is
                  taking corrective action to identify and stop overpayments on these
                  records with incorrect or missing SSNs.3
      Any remaining instances where two or more cases matched on the fields listed
      above were kept for review.

      This match resulted in 1,767 cases for possible inclusion in our review. We then
      analyzed the records in these cases further to determine whether the SSNs
      belonged to the same person or different individuals, such as twins with similar
      names. Specifically, we looked at the following: beneficiary’s full name, gender,
      date of birth, place of birth, cross-referenced SSNs, initial date of application for a
      Social Security card, date of application for benefits, remarks, type of disability, date
      disability began, representative payee,4 address, telephone number, bank
      information, and parents’ full names. We also ensured that the individuals were still
      receiving benefits in December 2005.

      After our matching processes and additional reviews, we identified 321 individuals
      who may have received benefits inappropriately under multiple SSNs.5 On
      December 21, 2005, we referred these cases to SSA for review. We also requested
      that SSA refer any instances of possible fraud to the Office of the Inspector
      General’s Office of Investigations.

      After obtaining feedback from SSA on our cases, we quantified the amount of
      overpayments assessed by the Agency. We also calculated future savings for the
      next 12 months where SSA stopped the improper payments.

We conducted our audit between November 2005 and May 2006 in Boston,
Massachusetts. We found the data used for this audit were sufficiently reliable to meet
our audit objective. The entities audited were the Field Offices and Program Service
Centers under the Deputy Commissioner of Operations, and the Office of Retirement
and Survivors Insurance Systems and the Office of Disability and Supplemental
Security Income Systems under the Deputy Commissioner for Systems. We conducted
our audit in accordance with generally accepted government auditing standards.



3
  We provided recommendations for incorrect and/or missing auxiliaries’ SSNs in our audit reports—
Impact on the Social Security Administration’s Programs When Auxiliary Beneficiaries Do Not Have Their
Own Social Security Numbers (A-01-02-22006), September 2002; and Impact on the Social Security
Administration’s Programs When Auxiliary Beneficiaries Have Incorrect Social Security Numbers
(A-01-03-33020), November 2003.
4
 A representative payee is a person, agency, organization, or institution selected to receive and manage
benefits on behalf of a recipient who cannot manage or direct the management of his or her finances
because of age, mental, and/or physical impairments (20 C.F.R. §§ 404.2010 and 404.2020).
5
    We later removed 1 person who was counted twice—which reduced the population to 320 individuals.


                                                  C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      August 2, 2006 /s/                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Beneficiaries Paid Under More than One
           Social Security Number" (A-01-06-26022)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and the recommendation are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“BENEFICIARIES PAID UNDER MORE THAN ONE SOCIAL SECURITY NUMBER”
A-01-06-26022


Thank you for the opportunity to review and comment on the draft report. We appreciate both
your Office of Audit’s and Office of Investigations’ efforts to help us ensure that benefits are
paid only to those legally entitled to them. We are encouraged that your analysis of
approximately 54 million Old Age Survivors and Disability Insurance and Supplemental
Security Income beneficiaries identified only 320 individuals who appeared to be receiving
benefits inappropriately under at least two different Social Security numbers (SSN). More
important to us was the finding that of these 320 cases, only 9 (representing $4,325 in
overpayments) could be attributed to administrative errors by the Agency. We are very pleased
that the findings of this review did not reveal any significant weaknesses in our processes.

For the 208 cases identified as possible fraud cases, we have taken action on all 208 cases to
correct our records and assess the appropriate overpayments. Regarding the assignment of
multiple SSNs, the report accurately notes that the majority of the potential fraud cases involved
fraudulently obtained SSNs that were issued prior to 2002. Since we have tightened the
requirements for obtaining an SSN, we do not believe these situations will occur in the future as
the new process has made it much more difficult to obtain an SSN using fraudulent documents.

Our response to the recommendation is provided below.

Recommendation 1

The Social Security Administration staff should continue to work with the Office of
Investigations and assess overpayments where appropriate.

Response

We agree. We will continue to work with the Office of Investigations where appropriate on any
outstanding accounts.




                                               D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807


Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-26022.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
